                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS
                                                                                      J


                                              CLOSEOUT MEMORANDUM




         We received an anonymous allegation with a copy of a newsletter circulated by an NSF program
         officer's outside consulting company stating that, "[wlhile continuing to assist NSF in the capacity of
         Program Officer . . . ,I am working with a wide range of clients, including the U.S. Department of
         Energy, National Health Museum, and others. I'd be glad to discuss ways I can assist you." The
         anonymous allegation said this was an "e-mail sent to future NSF applicants."

         The subject told us that he had received conflicts advice from NSF's DAEO and followed it. The
         subject demonstrated that he had kept his conflicts official informed of his outside consulting
         activities and his efforts to keep them separate from his NSF activities. He also notified others in his
         division about institutions fiom which he was recused because of conflicts issues. He said that he
         keeps lists of NSF awardee institutions and PIS, and endeavors to ensure that they, and potential NSF
         applicants, do not receive his newsletter.

         The subject has demonstrated awareness of the conflicts rules and evidence of his efforts to comply
         with them, and the anonymous allegation provided no evidence of wrongdoing. Accordingly, this
         case is closed.




VSF OIG Form 2 (1 1/02)
